HHS/OIG - Audit, Review of Medicaid Claims for Patients Between the Ages of 21 to 64 in New Jersey's State Operated Institutions for Mental Diseases Who Were Temporarily Released to Acute Care Hospitals for Medical Treatment, (A-02-00-01027)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for Patients Between the Ages of 21 to 64 in New Jersey's State Operated Institutions
for Mental Diseases Who Were Temporarily Released to Acute Care Hospitals for Medical Treatment," (A-02-00-01027)
March 25, 2002
Complete
Text of Report is available in PDF format (550 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if controls were in place to preclude New Jersey from claiming Federal financial
participation (FFP) under the Medicaid program for 21 to 64 year old residents of State operated psychiatric hospitals
that were institutes for mental diseases (IMDs).  The audit focused on individuals who were temporarily released to
acute care hospitals for medical treatment.  Our review found that improvements were needed in controls established
by the State to preclude claiming FFP in such cases.  For the period July 1, 1997 through June 30, 2001, the State
improperly claimed $190,848 of FFP under the Medicaid program for inpatient acute care hospital services.  We recommended
that the State:  (1) refund $190,848 to the Federal Government; (2) identify and return the improper FFP claimed subsequent
to June 30, 2001; and (3) strengthen procedures to ensure that claims for 21 to 64 year old residents of IMDs who receive
medical services, including inpatient acute care hospital services, provided outside of the psychiatric hospitals, are
not claimed for FFP.  New Jersey officials agreed with our recommendations.